 

No. 20-

IN THE
SUPREME COURT OF THE UNITED STATES
October Term, 2020

 

MCIHAEL TORRENCE
Petitioner,
v.
COMMONWEALTH OF KENTUCKY,

Respondent.

 

ON PETITION FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF KENTUCKY

 

CERTIFICATE OF WORD COUNT
PURSUANT TO RULE 33.1(h)

I, Joshua D. Farley, counsel of record for Petitioner Michael Torrence, certify and
state as follows:

1. Iam a member of the Bar of the Supreme Court of the United States.

2. Iam counsel of record for Petitioner in the above-styled action.

3. I utilized Microsoft Word word count tool, showing that there are 6148 words in
the Petitioner’s Petition for Writ of Certiorari, inclusive of all sections of the

Petition except attached Appendix items, thereby complying with the word count
requirement of Rule 33.
Respectfully submitted,

 

Lf. VS

\ *JOSHUA D, FARLEY
F. TODD LEWIS
111-W. Washington Street, Suite 400
Louisville, Kentucky 40202
(859) 816-5671
*Counsel of Record
jdf@farleylawky.com

*Counsel of Record
